FDIC Office of Inspector General Press Release: Phoenix Man Sstenced to 12 Years in Federal Prison for Defrauding Seniors
News Release
United States Department of Justice
The United States Attorney's Office, John S. Leonardo
District of Arizona
Public Affairs
BILL SOLOMON
Telephone:  602.514.7547
Cell:  602.920.1424
WILLIAM.SOLOMON@USDOJ.GOV
WWW.JUSTICE.GOV/USAO/AZ
FOR IMMEDIATE RELEASE
November 28, 2012
PHOENIX MAN SENTENCED TO 12 YEARS IN FEDERAL PRISON FOR DEFRAUDING SENIORS
PHOENIX â On November 27, 2012, Jeffrey P. Navin, 53, of Phoenix, was sentenced by U.S. District Judge G. Murray Snow to 12 years in federal prison, to be followed by 5 years of supervised release. Navin pleaded guilty in August to felony charges stemming from his sale of fictitious certificates of deposit to 20 retired investor-victims in Arizona, which resulted in a collective loss of nearly $6 million. Judge Snow also ordered Navin to pay restitution to the investors. In imposing the sentence, Judge Snow cited the need to protect Arizona's substantial retired population from Navin and from others contemplating similar frauds.
In pleading guilty, Navin acknowledged that he falsely held himself out as an "FDIC Broker" and sold phony certificates of deposit, which he claimed were FDIC insured, to retired investors. Navin formed multiple shell corporations, created false documents, and made Ponzi-like payments of interest to make investors believe he was legitimately brokering secure investments. Many of the elderly or retired Arizonans who fell prey to Navin's scheme invested substantial retirement savings.
"We hope that Navin's lengthy sentence will deter others from committing financial crimes, particularly crimes against Arizona's retired or elderly citizens," said U. S. Attorney John S. Leonardo. "The United States Attorney's Office will continue to vigorously prosecute crimes like Navin's, which cause devastating financial harm to the victims by depriving them of retirement funds they worked a lifetime to accumulate."
"Jon Rymer, FDIC Inspector General, likewise applauded the sentence: "The FDIC Office of Inspector General is pleased to join our law enforcement colleagues in the successful prosecution of this case. We are particularly concerned when unscrupulous individuals like Mr. Navin misrepresent affiliation with the FDIC in an attempt to deceive unsuspecting investors. We will continue efforts to help ensure the integrity of the FDIC and the public trust and confidence that the FDIC represents."
"The investigation in this case was conducted by the FDIC Office of Inspector General and the Maricopa County Sheriff's Office. The prosecution was conducted by Assistant U.S. Attorneys Monica Klapper and Peter Sexton, District of Arizona, Phoenix.
CASE NUMBER:            CR-11-01616-PHX-GMS
RELEASE NUMBER:     2012-225(Navin